CERTIFICATE OF COMPLIANCE
No. 21-159
W. CLARK APOSHIAN,
Petitioner,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I
certify that the Brief of Amici Curiae David Codrea,
Scott Heuman and Owen Monroe in Support of
Petitioner contains 3,353 words, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 31, 2021.

/s/ Stephen D. Stamboulieh
Stephen D. Stamboulieh
Counsel of Record
Stamboulieh Law, PLLC
P.O. Box 428
Olive Branch, MS 38654
(601) 852-3440
Stephen@sdslaw.us

